NO. 20-414
In the

Supreme Court of the United States
ROVI GUIDES, INC.,
Petitioner,
V.

COMCAST CABLE COMMUNICATIONS, LLC,
AND UNITED STATES OF AMERICA,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 30th day of October, 2020, copies of the Brief for Comcast Cable
Communications, LLC in Opposition were sent to:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Michael E. Joffre
Sterne Kessler Goldstein & Fox PLLC
1100 New York Avenue, NW
Washington, DC 20005

Respectfully submitted,

Arn Jacobsen

